                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

11   Case Number: A05040020
                                                                                      11           Page 1 of 1



                    During a proactive review of REU site awards for compliance with NSF policies, procedures,
           and regulations for research with living organisms, we identified an award' involving both human
           subjects and vertebrate animals but failing to provide the proper designations and approval
           information on the proposal coverpage. In response to our inquiry, the institution2noted that the lack
           of information on the coverpage was a "clerical oversight." At our suggestion, the institution
           conducted its own internal review of its eighty-nine active awards and proposals for compliance,
           finding that nine active awards and six pending proposals contained errors. In one instance, an active
           award had been executed without the appropriate Institutional Review Board consideration. The
           institution submitted letters to the appropriate NSF divisions to update the status of its research with
           living organisms under the NSF awards. The institution also modified its internal compliance
           procedures to facilitate greater communication between its pre- and post-award administration units
           as well as instituted periodic reviews for compliance. The institution's step appear adequate at this
           time to prevent future "clerical oversights."

                     Accordingly, this case is closed.




I'
 NSF OIG Form 2 ( 1 1/02)
